         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Special Report

Follow-Up Review of The
Department of Energy's
Response to Hurricanes Katrina
and Rita




DOE/IG-0733                            July 2006
SPECIAL REPORT OF THE FOLLOW-UP REVIEW OF THE
DEPARTMENT OF ENERGY'S RESPONSE TO HURRICANES KATRINA
AND RITA


TABLE OF
CONTENTS


    Implementation of Recommendations

    Actions Taken                                   1

    Opportunities for Improvement                   3

    Recommendation                                  4

    Management Reaction                             4


    Appendices

    1. Objective, Scope, and Methodology            5

    2. Management Comments                          6
IMPLEMENTATION OF RECOMMENDATIONS

Actions Taken   From November 2005 to May 2006, the Department of Energy
                (Department) made significant progress toward implementing our
                recommendations, thereby improving its ability to successfully
                perform future Emergency Support Function-12 (ESF-12)
                missions. In the Special Report on The Department of Energy's
                Response to Hurricanes Katrina and Rita (November 2005,
                DOE/IG-0707), we recommended that the Director, Office of
                Electricity Delivery and Energy Reliability:

                    •   Clarify with external sources the appropriate ESF-12 point
                        of contact to whom they should direct information
                        requests, and proactively disseminate such information to
                        Department of Energy personnel and appropriate external
                        sources;

                    •   Ensure that deployed teams are adequately provisioned
                        with a standardized suite of equipment;

                    •   Determine whether additional personnel are necessary to
                        meet the Department's National Response Plan
                        obligations; and,

                    •   Develop an inventory of available Department resources
                        for emergency energy restoration.

                                  Communications Management

                The Department took several positive actions to improve
                communications during ESF-12 deployments. In our earlier report,
                we noted that the Department received duplicative requests for
                information when external entities requested the same information
                from different ESF-12 personnel. To remedy this situation, the
                Office of Electricity Delivery and Energy Reliability enhanced its
                organizational relationships by appointing ESF-12 responders as
                primary and alternate representatives in each of the Federal
                Emergency Management Agency regions, designating a single
                point of contact with the Department of Homeland Security, and
                establishing a point of contact with the National Nuclear Security
                Administration. The Office of Electricity Delivery and Energy
                Reliability is also redesigning its hurricane situation report format
                to improve readability and to reduce report preparation time.
                Finally, the Office of Electricity Delivery and Energy Reliability
                plans to assume responsibility for ESF-12 community participation
                in the Homeland Security Information Network, which will allow
                responders to communicate directly with one another.



Page 1                                   Implementation of Recommendations
                                Responder Equipment

         The Department improved response team provisioning through
         equipment upgrades and improvements to response team
         information resources. As discussed in our earlier report,
         Department managers and responders identified several equipment
         additions that would enhance the "Go Kits" provided to the
         responders during deployment. For example, several responders
         indicated their hurricane relief efforts would have been more
         effective if they had been equipped with mobile Global Positioning
         Systems and properly-configured computer equipment.

         In January 2006, the Office of Electricity Delivery and Energy
         Reliability coordinated a collaborative effort with the Department's
         Office of the Chief Information Officer to embed a
         communications specialist in an upcoming ESF-12 deployment.
         This specialist will evaluate ESF-12 technology needs and make
         recommendations for additional equipment. The Office of
         Electricity Delivery and Energy Reliability also requested
         additional equipment to address responder needs during a
         deployment, including: Global Positioning Systems, external
         storage devices, and remote access equipment. Finally, the Office
         of Electricity Delivery and Energy Reliability is working with the
         National Energy Technology Laboratory to develop a database of
         key energy infrastructure facilities and assets, which can be issued
         to responders to help them understand more about the facilities and
         their special needs.

                             Emergency Support Staffing

         The Department took action to provide line personnel necessary to
         meet its National Response Plan obligations. During Hurricanes
         Katrina and Rita, the Office of Electricity Delivery and Energy
         Reliability had 8 personnel dedicated as initial emergency
         responders; however, the severity and magnitude of the hurricanes
         required the deployment of 35 personnel to 9 different emergency
         centers. Since our earlier report, the Office of Electricity Delivery
         and Energy Reliability hired an additional responder and
         implemented a proactive volunteer responder program to assist in
         ongoing efforts. On May 1, 2006, the Department's Chief of Staff
         issued a "Request for Volunteers to Serve as Energy Restoration
         Team Members during this Year's Hurricane Season." The intent
         of the solicitation was to augment the Department's cadre of
         trained responders with volunteers – especially those with
         backgrounds in electrical engineering, petroleum engineering, and
         emergency management – who would serve as Energy Restoration



Page 2                             Implementation of Recommendations
                    Team members. According to the Office of Electricity Delivery
                    and Energy Reliability, this initiative resulted in the training of an
                    additional 30 employees for emergency response.

Opportunities for   While the Department took action to identify energy restoration
Improvement         assets, we noted areas where additional improvements could be
                    made. In our earlier report we noted that, although Departmental
                    assets were used to respond to energy restoration requests, the
                    Department did not have a mechanism readily available to identify
                    equipment within its extensive asset base that could be made
                    available to meet emergency needs.

                    In response, the Department conducted a preliminary survey of
                    emergency restoration equipment at selected sites. In March 2006,
                    the Department's Office of Management supplied the Office of
                    Electricity Delivery and Energy Reliability with a listing of the
                    amount of emergency equipment available at six Department sites.
                    While the inventory was a good first step, we noted two concerns:

                        •   The lack of sufficient detail about available equipment
                            limited its usefulness; and,

                        •   All Department entities were not included in the inventory
                            listing.

                    Instead of listing individual assets for use, the Department reported
                    summary quantities for different item classifications. For example,
                    the Office of Management reported that the Department owned
                    over 170 generators, which could be transferred in an emergency
                    situation. However, the absence of detail for each generator
                    limited the usefulness of the listing to the responder on the scene.
                    Although the generators were later subdivided by size, the
                    responders told us they would still require more detailed
                    information about the generators to make an informed decision
                    about utilization. Also, the inventory was incomplete because the
                    listing did not include all Department entities such as the National
                    Nuclear Security Administration, Bonneville Power
                    Administration, and the Strategic Petroleum Reserve. These
                    entities have substantial assets, some of which were used in
                    response to Hurricanes Katrina and Rita. Without a detailed and
                    complete listing of energy restoration assets, future ESF-12
                    responders may not be able to readily access Department resources
                    during an emergency.




Page 3                                                Opportunities for Improvement
RECOMMENDATION   We recommend that the Director, Office of Electricity Delivery
                 and Energy Reliability, coordinate with other Department
                 organizations and the National Nuclear Security Administration to
                 ensure that emergency response assets are fully identified and
                 described for timely use during ESF-12 events.


MANAGEMENT       The Director, Office of Electricity and Energy Reliability,
REACTION         concurred with the recommendation in the report and provided an
                 appropriate action plan to address the report's recommendation.
                 Specifically, he agreed to undertake a pilot project to compile an
                 inventory of generators, the most sought-after asset during energy
                 emergencies, and coordinate with the National Nuclear Security
                 Administration, Bonneville Power Administration, and other
                 appropriate entities on how they might be able to support this
                 effort. Management’s comments are included in Appendix 2.




Page 4                                       Recommendation and Comments
Appendix 1

OBJECTIVE     The objective of this review was to determine whether the
              Department of Energy (Department) is effectively implementing
              the recommendations from the November 2005 Special Report on
              The Department of Energy's Response to Hurricanes Katrina and
              Rita.


SCOPE         The review was performed from April to June 2006, at the
              Office of Electricity Delivery and Energy Reliability and the
              Office of Management in Washington, D.C. In particular, we
              reviewed actions taken by the Department in response to our
              prior recommendations.


METHODOLOGY   To assess the Department's response to our recommendations, we:

                  •   Interviewed Department officials from the Office of
                      Electricity Delivery and Energy Reliability and the Office
                      of Management;

                  •   Obtained the Departmental Audit Report Tracking System
                      status report for recommendations;

                  •   Reviewed the Department's plans for closing the
                      recommendations;

                  •   Evaluated the Department's progress toward completion;

                  •   Reviewed the Office of Electricity Delivery and Energy
                      Reliability organizational structure;

                  •   Interviewed Departmental emergency response team
                      personnel;

                  •   Reviewed the Department's listing of potential emergency
                      response team members and deployment areas; and,

                  •   Examined Lessons Learned documents.

              Management waived the exit conference.




Page 5                                   Objective, Scope, and Methodology
Appendix 2




Page 6       Management Comments
                                                                    IG Report No. DOE/IG-0733

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
